TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Actions Are Needed to Strengthen
                       the National Quality Review System
                            for Correspondence Audits



                                      September 20, 2013

                              Reference Number: 2013-30-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


ACTIONS ARE NEEDED TO                                  given to significant issues, contain key
STRENGTHEN THE NATIONAL                                requirements not evaluated under the NQRS.
QUALITY REVIEW SYSTEM FOR                              This can create inconsistencies in how
CORRESPONDENCE AUDITS                                  examiners conduct audits and in how the NQRS
                                                       evaluates the quality of those audits to identify
                                                       errors.
Highlights                                             For example, TIGTA evaluated a statistical
                                                       sample of 127 of 2,913 correspondence audits
Final Report issued on September                       that had been reviewed by the NQRS during an
20, 2013                                               18-month period and found errors with penalty
                                                       determinations in 65 of the audits (51 percent)
Highlights of Reference Number: 2013-30-099            that had not been detected and reported by
to the Internal Revenue Service Commissioner           NQRS quality reviewers.
for the Small Business/Self-Employed Division.
                                                       IRS executives and stakeholders should be
IMPACT ON TAXPAYERS                                    provided with a more comprehensive snapshot
                                                       of audit quality so that needed corrective actions
An audit is one of the primary enforcement tools       can be timely recognized and taken. Only one
the IRS uses to address noncompliance with the         overall measure of audit quality is currently
tax laws. Because problems with                        reported quarterly by the NQRS to IRS
correspondence audits are not always                   executives and other key stakeholders even
recognized and reported, the IRS may be                though as many as 71 items are reviewed.
missing opportunities to reduce the
noncompliance that contributes to the Tax Gap          Finally, the random selection of audits for
and promote tax system fairness among the              NQRS review could not be verified. As such,
tax-paying public.                                     TIGTA was not able to confirm the statistical
                                                       validity of the NQRS results.
WHY TIGTA DID THE AUDIT
                                                       WHAT TIGTA RECOMMENDED
This audit was initiated to determine the
accuracy of the results from the National Quality      TIGTA recommended that the IRS ensure that
Review System (NQRS) and how management                1) the auditing standards align with the NQRS
uses the feedback to enhance the quality of            quality measures, 2) a more complete picture of
correspondence audits. The review is part of           correspondence audit quality is provided to
our Fiscal Year 2013 Annual Audit Plan and             NQRS customers on a regular basis, and
addresses the major management challenge of            3) audits are selected randomly for NQRS
Tax Compliance Initiatives.                            review.

WHAT TIGTA FOUND                                       In their response to the report, IRS management
                                                       agreed with the first two recommendations and
The NQRS is designed to provide IRS managers           disagreed with the third, indicating that they do
at all levels with estimates of audit quality from a   not have a cost-effective way to allow the
sample of audits to use in identifying areas in        randomness of the NQRS case selection
which corrective actions are needed. However,          process to be verified. Because the IRS’s
TIGTA identified areas that could be                   conclusion was reached after the draft report
strengthened to increase the accuracy of NQRS          was issued, the underlying details supporting the
review results, enhance the ability of managers        conclusion were not evaluated. If the sample
to identify and address quality problems with          selection process cannot be verified, the IRS
correspondence audits, and ensure that the             cannot be assured of the statistical validity of
NQRS sample is selected at random.                     NQRS results.
The auditing standards and NQRS quality
measures need to be better aligned. The
auditing standards, including the consideration
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 20, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Are Needed to Strengthen the
                             National Quality Review System for Correspondence Audits
                             (Audit # 201130027)

 This report presents the results of our review to determine the accuracy of results from the
 National Quality Review System and how management uses the feedback to enhance the quality
 of correspondence audits. The review is included in our Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII. Copies of this
 report are also being sent to Internal Revenue Service managers affected by the report.
 If you have any questions, please contact me or Nancy Nakamura, Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).
                                   Actions Are Needed to Strengthen the
                         National Quality Review System for Correspondence Audits




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          A Comprehensive Quality Review System
          Has Been Established to Measure the Quality
          of Correspondence Audits............................................................................. Page 3
          Steps Can Be Taken to Strengthen the
          National Quality Review System .................................................................. Page 4
                    Recommendation 1:........................................................ Page 9

                    Recommendations 2 and 3: .............................................. Page 10


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Quality Attributes Considered by National
          Quality Review System Reviewers............................................................... Page 17
          Appendix V – Results From the Correspondence Audit
          Fiscal Year 2013 Business Performance Review (1st Quarter) ..................... Page 18
          Appendix VI – Glossary of Terms ................................................................ Page 20
          Appendix VII – Management’s Response to the Draft Report ..................... Page 21
                  Actions Are Needed to Strengthen the
        National Quality Review System for Correspondence Audits




                     Abbreviations

IRS            Internal Revenue Service
NQRS           National Quality Review System
SB/SE          Small Business/Self-Employed
TIGTA          Treasury Inspector General for Tax Administration
                                  Actions Are Needed to Strengthen the
                        National Quality Review System for Correspondence Audits




                                               Background

The Internal Revenue Service (IRS) estimates that $235 billion of the $450 billion in taxes that
should have been reported and paid on time but were not is caused by individuals underreporting
their income tax liabilities. An audit is one of the primary enforcement tools the IRS uses to
address the noncompliance that contributes to the Tax Gap,1 and the cornerstone of the IRS audit
efforts is the correspondence audit program.
In Fiscal Years 2008 through 2012, IRS statistics show that it conducted almost 5.7 million
correspondence audits and, in the process, recommended approximately $40.4 billion in
additional taxes. This represents about 77 percent of all audits the IRS conducted of individual
income tax returns and about 56 percent of the estimated
$72.4 billion in recommended additional taxes resulting
from those audits. The responsibility for conducting            In Fiscal Years 2008 through 2012,
correspondence audits rests largely with the IRS’s                IRS statistics show it conducted
Small Business/Self-Employed (SB/SE) Division, which            almost 5.7 million correspondence
handles complex individual tax returns, and its Wage and              audits and recommended
Investment Division, which handles simple tax returns               approximately $40.4 billion in
                                                                          additional taxes.
filed by individuals reporting wages, interest, dividends,
and other investment income.
In contrast to the more detailed and lengthy face-to-face audit at an IRS office or in the field at a
taxpayer’s place of business, the correspondence audit process is less intrusive, more automated,
and conducted by examiners who are trained to deal with less complex tax issues. Because of its
automated features and less complex tax issues, the correspondence audit process enables the
IRS to reach more taxpayers at a lower cost. The IRS currently conducts correspondence audits
in approximately 37 program areas.
Regardless of the program, the audit process typically begins with the IRS mailing a
computer-generated letter from one of its campuses to a taxpayer. The letter outlines the
examination process, identifies one or more items on the tax return being questioned, and
requests supporting information to resolve the questionable items. Once the requested
information is returned, examiners review it to determine whether it resolves the questions. If
the questions can be sufficiently answered by the information provided, the audit is generally
closed without any changes to the tax; if not, the taxpayer is sent a letter requesting more
information or indicating a recommended change to the tax.



1
    See Appendix VI for a glossary of terms.
                                                                                              Page 1
                               Actions Are Needed to Strengthen the
                     National Quality Review System for Correspondence Audits



The taxpayer at this point can do one of the following:
       Agree with the examiner.
       Provide the examiner with clarifying information.
       Appeal the decision to the IRS’s Office of Appeals.
In instances where the taxpayer does not respond to IRS letters, the examiner’s recommended tax
changes are assessed by default and the taxpayer will generally have to petition the court system
to contest the assessment.
Prior Treasury Inspector General for Tax Administration (TIGTA) audits
In June 2010,2 TIGTA reported that penalties were not considered and assessed in accordance
with IRS policies and procedures for 211 (92 percent) of 229 sample audits closed in Fiscal
Year 2008.3 As a result, opportunities were missed to promote the preparation and submission of
complete and correct information on tax returns, impose an economic cost on those who chose
not to voluntarily comply with Federal tax laws, and increase revenue for the Department of the
Treasury by an estimated $17.5 million.
In February 2010, TIGTA reported that tests of a statistical sample of 298 correspondence audits
involving sole proprietors closed in Fiscal Year 2007 identified that significant issues were not
addressed in 129 (43 percent) of the audits.4 As a result, it was estimated that taxpayers may
have avoided tax and interest assessments totaling approximately $83 million.5
This review was performed at the IRS National Headquarters in Washington, D.C., the
SB/SE Division Headquarters in Lanham, Maryland, and the IRS Campus in Ogden, Utah,
during the period September 2011 through April 2013. This performance audit was conducted in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.



2
  TIGTA, Ref. No. 2010-30-059, Accuracy-Related Penalties Are Seldom Considered Properly During
Correspondence Audits (Jun. 2010).
3
  The projection was made using a confidence level of 95 percent, precision rate of ± 5 percent, and expected
occurrence rate (error rate) of 79 percent.
4
  TIGTA, Ref. No. 2010-30-024, Significant Tax Issues Are Often Not Addressed During Correspondence Audits of
Sole Proprietors (Feb. 2010).
5
  The projection was made using a confidence level of 95 percent, precision rate of ± 5.32 percent, and expected
occurrence rate (error rate) of 43.29 percent.
                                                                                                         Page 2
                                 Actions Are Needed to Strengthen the
                       National Quality Review System for Correspondence Audits




                                      Results of Review

A Comprehensive Quality Review System Has Been Established to
Measure the Quality of Correspondence Audits
To ensure that correspondence audits are conducted in a quality manner, the IRS uses a
comprehensive quality review system. The system includes a statistical sampling of
correspondence audits. The IRS has also integrated various internal controls into its quality
review system as outlined in the Standards for Internal Control in the Federal Government.6
These help the IRS determine the effectiveness and efficiency of its correspondence audits and
whether examiners are ensuring that taxpayers are complying with laws and regulations.

Establishment of standards and performance measures
The IRS has established seven auditing quality standards. Each standard has key elements that
elaborate on and further define the overall standard. For example, one of the key elements for
Adequate Consideration of Significant Issues instructs examiners to consider and/or pursue
audits of the prior and/or subsequent year returns when they contain the same issues as in the
year examined. Appendix IV contains additional details on the key elements associated with
each quality standard. Figure 1 explains each standard and provides an overview of the standard.
             Figure 1: Quality Auditing Standards for Correspondence Audits

               Standard                                               Overview
    Adequate Consideration of         Measures whether consideration was given to large, unusual, or
    Significant Issues                questionable items.
    Examination Depth and             Determines whether the issues were pursued to the extent needed to
    Conclusions Reached               determine the substantially correct tax.
                                      Addresses whether the audit case file documents the audit procedures
    Workpapers Support Conclusions
                                      followed and conclusions reached.
    Report Writing Procedures         Assesses the written presentation of audit findings in terms of content,
    Followed                          format, and accuracy.
    Penalties Properly Considered     Rates whether applicable penalties were considered and applied correctly.
    Timely Actions                    Addresses the timeliness of actions taken during the audit.
                                      Verifies whether administrative procedures were followed such as those
    Case Administration
                                      related to Power of Attorney privileges.
    Source: Internal Revenue Manual 4.19.13.2.

6
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                             Page 3
                                  Actions Are Needed to Strengthen the
                        National Quality Review System for Correspondence Audits



Accurate and timely recording of events
The Internal Revenue Manual, quality standards, and examiner training courses emphasize the
need for examiners to document their decisions and the actions taken during each audit in the
audit case file. For example, the standard for considering penalties requires that examiners
document their decisions to assess or not assess all applicable penalties, along with the basis for
that decision. Such documentation is an important control activity because it helps ensure that
examiners have considered all aspects of an audit and provides the information needed in
subsequent reviews that evaluate whether examiners made the correct decisions.

Management reviews at the activity level
First-line managers review the documentation for a sample of audit case files to identify and
correct quality problems in conjunction with evaluating the performance of the examiners they
supervise. Managers rate examiner actions against established attributes based on the type of
audit being reviewed. Attributes are collected into specific groups that follow the progression of
a case and are mapped to the critical job elements for examiner performance evaluations. In
addition to rating whether the examiner action met the attribute, managers may also enter
narrative comments.

Management reviews at the functional level
While first-line manager reviews serve as the initial mechanism for identifying and correcting
quality problems, each of the five IRS campus sites that conduct correspondence audits also
perform quality review audits as part of the IRS-wide National Quality Review System (NQRS).7
Unlike first-line manager reviews that are generally used to evaluate a specific examiner’s
performance, NQRS reviews focus on providing IRS managers at all levels with statistically
reliable estimates of audit quality by evaluating a small sample of closed audits.

Steps Can Be Taken to Strengthen the National Quality Review
System
The NQRS data related to correspondence audits is not accurate. Although three of the four
quality attributes we tested on a statistical sample of correspondence audits identified no
significant concerns, tests of the accuracy-related penalty determinations identified a significant
number of errors that had not been detected and reported by NQRS quality reviewers. The errors
were caused, in large part, by inconsistencies between the NQRS attributes and the auditing
standards.




7
    Appendix IV provides an overview of the quality attributes considered by NQRS reviewers.
                                                                                               Page 4
                                Actions Are Needed to Strengthen the
                      National Quality Review System for Correspondence Audits



Our audit tests included a review of statistical samples of 66 discretionary8 correspondence
audits and 61 Earned Income Tax Credit correspondence audits (127 total audits) from a
population of 2,913 audits reviewed by the NQRS between October 1, 2009, and
March 31, 2011. Auditors’ case reviews focused on four technical quality attributes that
determined whether:
    (1) Audits properly addressed all large, unusual, and questionable issues.
    (2) Certification techniques were used to verify that required documentation was received
        from taxpayers.
    (3) Penalties were properly considered and assessed when warranted.
    (4) Tax account information residing on IRS automated data systems was used when
        appropriate to resolve large, unusual, and questionable issues.
Limiting the review to these four attributes enabled the auditors to focus on how well quality
reviewers were detecting and reporting areas determined in the past by TIGTA to be
problematic. These four quality attributes are critical to addressing underreporting
noncompliance.
Except for a few instances, TIGTA did not identify any concerns with how NQRS reviewers
rated the quality of the large, unusual, and questionable issues that examiners were assigned to
audit. In addition, nearly all the closed audit case files reviewed contained the required tax
account information from IRS automated systems that examiners could use to help address the
large, unusual, and questionable issues they were assigned to audit. However, we did find a
concern with penalty determinations.

Penalty determination errors were undetected
Sixty-five (51 percent) of the 127 total correspondence audits in our two statistical samples
contained errors in accuracy-related penalty determinations that NQRS quality reviewers had not
detected and reported. As such, the reported NQRS quality measure of 95 percent appears to be
significantly overstated.
During audits, examiners are responsible for considering accuracy-related penalties when
recommending adjustments to tax liabilities. These penalties, which typically include negligence
and substantial understatement penalties in correspondence examinations, are designed to
promote the preparation and submission of complete and correct information on tax returns as
well as impose an economic cost on taxpayers who choose not to comply with the tax law.

8
  Discretionary audits focus on a variety of tax issues other than Earned Income Tax Credits and are identified from
a number of sources, including the Discriminant Index Function (an automated system for scoring individual tax
returns according to their audit potential), studies/research projects, third-party document matching, and Federal and
State Government agency referrals.

                                                                                                              Page 5
                               Actions Are Needed to Strengthen the
                     National Quality Review System for Correspondence Audits



                                                 The cases identified as having errors in penalty
  The negligence penalty can be assessed         determinations involved straight-forward issues,
  when a taxpayer fails to make a reasonable
  attempt to comply with the tax law, exercise
                                                 which indicated that reasonable care was not
  ordinary and reasonable care in preparing      exercised in preparing the tax return but the case
  his or her return, or keep adequate books      files did not provide reasons why the penalties
  and records.
                                                 should not have been applied. For example, in nine
  The substantial understatement penalty         cases the examiners disallowed itemized deductions
  can be assessed when an understatement
  exceeds 10 percent of the tax required to be   in excess of $20,000 due to lack of documentation
  shown on the tax return or the                 but did not assess the negligence penalty as
  understatement is equal to or greater than     required for the taxpayers’ failure to keep adequate
  $5,000.
                                                 books and records. In four of the nine audits, the
  The penalty for both is 20 percent of the
  underpayment.                                  taxpayers understated their tax liabilities by more
                                                 than $4,000 but penalties were not considered.

There are inconsistencies between the auditing standards and the NQRS
attributes and job aids used to evaluate correspondence audits
The auditing standards laid out in the IRS’s Internal Revenue Manual and the attributes used for
NQRS rating are not all aligned. Two inconsistencies identified are penalty determinations and
multiyear examinations.
Auditing standards require that accuracy-related penalties, as well as all other applicable
penalties, be considered in all audits and assessed when warranted. The standards also specify
that penalties are to be accurately computed if they are recommended for assessment.
However, the NQRS job aids call the penalty quality measure “Penalty Computation” and
instruct quality reviewers to rate the measure any time a penalty is calculated or determined by
the examiner. Four of the seven quality reviewers we interviewed advised us that their
interpretation of this NQRS quality measure meant limiting the review to checking if penalties
were accurately computed, not whether a penalty should have been considered. Three quality
reviewers’ responses were in line with audit standards because they evaluated if applicable
penalties were considered and computed accurately when recommended for assessment.
There is also inconsistency and confusion over when, or if, the scope of single-year audits should
be expanded to include the prior and/or subsequent year returns. As of January 1, 2013, the
auditing standards clearly indicate that the scope of single-year audits are to be expanded to the
prior and/or subsequent year returns when they contain the same or similar large, unusual, or
questionable issues as in the year examined. In contrast, the NQRS quality attribute that deals
with audit scopes and large, unusual, and questionable issues does not discuss considering and
pursuing these issues in prior/subsequent year returns. However, it does instruct quality
reviewers to assess if all related tax years were properly considered in conjunction with
addressing all large, unusual, and questionable issues. This slightly different wording led several
quality reviewers to review cases differently than what is required in the auditing standards.

                                                                                              Page 6
                             Actions Are Needed to Strengthen the
                   National Quality Review System for Correspondence Audits



During interviews with NQRS quality reviewers in December 2012, TIGTA auditors received a
variety of answers when asked how the reviewers rate the attribute “Are all related tax years
considered?” One reviewer was unaware of the requirement or that any other quality attribute
required examiners to evaluate related tax returns. Some reviewers stated that looking at related
tax returns depends on the type of issues that were identified for audit. Other reviewers stated
that prior and/or subsequent year tax returns are never considered in the context with single-year
audits.
IRS officials stated that correspondence examiners, unlike examiners who conduct face-to-face
audits, are not required to perform Required Filing Checks of other tax years during
correspondence audits. Instead, the IRS relies on its audit sources and return selection process
for correspondence audits to determine if a prior and/or subsequent year return should be
audited. Required filing checks are used during face-to-face audits, in part, to determine whether
the same pattern of noncompliance identified on the audited tax return is present on the prior
and/or subsequent year tax returns and if those tax returns also warrant auditing. Therefore, the
NQRS attribute that asks if related tax years were considered is not valid for correspondence
audits.
If the NQRS attributes do not measure quality according to the auditing requirements, the NQRS
results will be incorrect and could be misleading. The NQRS attributes need to be adjusted to
align with the actual requirements for correspondence examinations.

A more complete picture of audit quality could be provided to NQRS customers
The ability of IRS executive managers and other NQRS customers to identify and correct quality
concerns with correspondence audits could be facilitated if the NQRS reporting mechanisms
provided not just information on overall audit quality but also specific information on the rating
of the various quality attributes evaluated by NQRS reviewers during their case reviews.
Considering the potential effect that poor audit quality can have on addressing underreporting
noncompliance, such information could be very useful for isolating problem areas so that
corrective actions can be taken. It would also help ensure that quality problems in key areas are
not masked by reporting one overall quality score.
The various IRS functional areas summarize high-level performance information on a quarterly
basis through the IRS’s Business Performance Review reporting process. The process is
designed to provide the opportunity for IRS executive managers to share accomplishments and
compliance concerns with the IRS Commissioner, Deputy Commissioner, and IRS Oversight
Board. However, because the Business Performance Review reports are intended to present




                                                                                            Page 7
                               Actions Are Needed to Strengthen the
                     National Quality Review System for Correspondence Audits



high-level summary information, just one overall quality score is typically included in the
quarterly review even though as many as 71 items are reviewed.9
Although not specifically required by the Business Performance Review reporting process, the
Large Business and International Division quality reviewers also supplement the reports each
quarter by providing executive managers with a detailed analysis of the attributes within each
auditing standard for which improvements can be made. For example, the analysis for the first
quarter of Fiscal Year 2013 showed that although the Large Business and International Division
examiners achieved an overall quality rating of 90 percent, there were at least two attributes that
were rated below 60 percent. When shared with examiners and their managers, such analyses
can serve as a means to communicate and reinforce the importance of adhering to IRS audit
quality guidelines and directives along with focusing attention on areas in the audit process that
need improvement. This practice should also be considered for the SB/SE Division executives.

The random selection of audits for NQRS review cannot be verified
The NQRS is designed to provide statistically reliable estimates of audit quality nationwide by
evaluating a relatively small sample of audits. The results, in turn, provide IRS management
with data that can be used to identify training and educational needs and improve audit quality.
To help ensure that the sample audits reviewed by the NQRS provide measures of audit quality
that are representative of all correspondence audits and can be relied upon to identify areas that
need improvement, IRS statisticians design and provide sampling plans for each campus. Every
three months, the statisticians reassess the sampling plans and provide the quality reviewers in
each campus with a memorandum that specifies the number of closed audits that are to be
randomly selected at specific intervals for review.
Audit tests of the SB/SE Division campuses quality review data showed only minor differences
between the number of reviews IRS statisticians designated for the SB/SE Division sampling
plans and the number of reviews completed by quality reviewers at all SB/SE Division
campuses. Figure 2 shows the results of our analysis comparing the number of NQRS quality
reviews planned to the actual number of quality reviews completed from October 2009 through
March 2011.




9
 Appendix V contains the correspondence audit portion of the IRS’s campuses Business Performance Review report
for the first quarter of Fiscal Year 2013.
                                                                                                      Page 8
                               Actions Are Needed to Strengthen the
                     National Quality Review System for Correspondence Audits



       Figure 2: Comparison of the Number of Quality Reviews Planned to the
          Actual Number Reviewed From October 2009 Through March 2011

                                    Reviews Required by    Completed                 Difference
    Fiscal Year Quarters            NQRS Sampling Plan    NQRS Reviews             (Completed –
                                                                                     Required)
                       Earned Income Tax Credit Audits and Discretionary Audits
 October–December 2009                     502                  528                     26
 January–March 2010                        521                  483                     (38)
 April–June 2010                           498                  574                     76
 July–September 2010                       490                  450                     (40)
 October–December 2010                     506                  578                     72
 January–March 2011                        490                  495                      5
 Total Audits                              3,007               3,108                    101
Source: Our analysis of IRS data.

We also consulted with our statistician, who verified that the sample size was sufficient to
measure the statistical reliability of the results. Additionally, the differences between the number
of reviews required by the NQRS sampling plan and the number of reviews actually completed
should have no material impact on the estimates of audit quality.
Although the requisite number of audits called for in the sampling plans was reviewed, we were
not able to verify or replicate the sampling process to determine if the audits were randomly
selected for review at the specified intervals because such documentation was not maintained.
Therefore, we were not able to confirm the statistical validity of the NQRS results.
According to published statistical sampling procedures from both within and outside of the
Federal Government, random selection is critical to ensure that samples are representative of the
population from which they were selected and to eliminate personal bias or subjective
considerations from the selection process. Moreover, the Office of Management and Budget
guidance on statistical surveys specifies that sample documentation should include information
necessary to allow a third party to replicate and evaluate statistical sampling results.

Recommendations
The Commissioner, SB/SE Division, should ensure that:
Recommendation 1: The auditing standards are better aligned with the NQRS attributes and
quality measures.



                                                                                               Page 9
                            Actions Are Needed to Strengthen the
                  National Quality Review System for Correspondence Audits



       Management’s Response: IRS management agreed with this recommendation and
       will determine if discrepancies exist between the auditing standards and the quality
       attribute coding and adjust the process as needed.
       Office of Audit Comment: As discussed in the report, we identified two
       discrepancies between IRS auditing standards and the attributes used by NQRS for
       evaluating correspondence audits. These discrepancies involve the consideration of
       penalties and the requirement for examiners to perform filing checks on other tax years.
       IRS management should ensure that, at a minimum, these two attributes are corrected in
       the NQRS.
Recommendation 2: A more complete picture of correspondence audit quality is provided to
NQRS customers on a regular basis.
       Management’s Response: IRS management agreed with this recommendation and
       will determine if providing their executives and program managers additional quality data
       with greater frequency would be helpful and feasible, and make any appropriate changes.
       Office of Audit Comment: In their response, IRS management stated that they
       regularly share more specific information about program performance with executives
       and managers, who use it to monitor, evaluate, and take action to improve the programs.
       However, IRS management did not provide us with copies of these reports during the
       audit and did not specify the additional quality data it would consider providing to
       executives and program managers. As such, we do not know if IRS management’s
       corrective action will include the types of quality errors we identified in this audit.
Recommendation 3: The audits selected for NQRS review are randomly selected and
documentation is maintained that will allow IRS management and third parties to verify that the
sampling plan was properly implemented.
       Management’s Response: IRS management does not agree with this
       recommendation. The IRS selects cases based upon a statistically valid methodology
       using a skip interval of every “Nth” case to ensure randomness. The IRS has explored
       the feasibility of using a reproducible listing process to select cases for review. It does
       not have the capability to pull a daily automated listing using the current systems. This
       automation change would take funding and years to implement. The manual gathering of
       this information would be extremely labor intensive and subject to error; therefore, it
       would not be feasible to implement the recommendation at this time.
       Office of Audit Comment: Because the IRS’s conclusion was reached after our audit
       work was completed and the draft report issued, we did not review the underlying details
       supporting the IRS’s conclusion. As a result, we cannot confirm the limitations and
       feasibility of verifying the IRS’s sample selection process. If documentation of the


                                                                                          Page 10
                     Actions Are Needed to Strengthen the
           National Quality Review System for Correspondence Audits



sample selection process is not maintained and cannot be verified or replicated later, the
IRS cannot be assured of the statistical validity of the NQRS results.




                                                                                   Page 11
                            Actions Are Needed to Strengthen the
                  National Quality Review System for Correspondence Audits



                                                                                  Appendix I

       Detailed Objectives, Scope, and Methodology

The objectives of this review were to determine the accuracy of results from the NQRS and how
management uses the feedback to enhance the quality of correspondence audits.
To accomplish these objectives, we:
I.     Evaluated the controls and procedures for the NQRS program when considering
       correspondence audits.
       A. Reviewed Internal Revenue Manual sections, management directives, quality
          reviewer training materials, and notices that provide controls and procedures for
          NQRS correspondence audits.
       B. Interviewed officials and conducted a walkthrough of the NQRS process to evaluate
          the controls and procedures for quality reviewers to follow when reviewing
          correspondence audits.
II.    Evaluated the accuracy of the sampling process for the NQRS program to determine
       whether NQRS quality reviewers are accurately identifying deficiencies for
       correspondence audits.
       A. Determined whether the NQRS case sampling process in Fiscal Years 2010 and 2011
          (through March 2011) for correspondence audits used an acceptable statistical
          sampling method.
          1. Evaluated the sampling process by consulting with an outside statistician.
          2. Evaluated NQRS management reports displaying sampling sizes and reviewed
             results in Fiscal Years 2010 and 2011 (through March 2011) for correspondence
             audits to determine if any anomalies are identified related to the sampling process.
       B. Reviewed a statistically valid sample of Fiscal Years 2010 and 2011 (through
          March 2011) NQRS cases for correspondence audits to determine the accuracy of
          actions by quality reviewers.
          1. Obtained NQRS computer data for correspondence audits in Fiscal Years 2010
             and 2011 (through March 2011). We validated the data to ensure that we could
             reasonably rely on the completeness and accuracy of the data provided by
             comparing NQRS management report totals to the totals from the data provided,
             conducting scans of the provided data fields and elements, and judgmentally


                                                                                          Page 12
                    Actions Are Needed to Strengthen the
          National Quality Review System for Correspondence Audits



       researching cases on the Integrated Data Retrieval System and/or Audit
       Information Management System to confirm a correspondence audit took place.
   2. Selected two statistically valid attribute samples of NQRS correspondence audits for
      Earned Income Tax Credit “Business” Programs and Discretionary “Non-Business”
      Programs closed during Fiscal Years 2010 and 2011 (through March 2011), using a
      confidence level of 90 percent, precision rate of ± 10 percent, and expected
      occurrence rate (error rate) of 50 percent. A statistical sample was taken because
      we wanted to estimate the number of correspondence audits with deficiencies. The
      total number of NQRS correspondence audits was 3,098 records for Fiscal
      Year 2010 (2,039 records) and Fiscal Year 2011 through March 2011
      (1,059 records). After eliminating invalid Taxpayer Identification Numbers, the
      total population was 3,091 records, and after eliminating duplicate Taxpayer
      Identification Numbers, the review population was 2,913 records. We over sampled
      by ordering 99 Discretionary and 93 Earned Income Tax Credit cases. Our final
      sample sizes were 61 audits for Earned Income Tax Credit “Business” Programs
      and 66 audits for Discretionary “Non-Business” Programs. We shared our
      sampling methodology with an outside statistician who confirmed the accuracy of
      our methodology.
   3. Obtained and evaluated the sample correspondence audit case files to determine if
      quality deficiencies existed and if the quality reviewer also identified the
      deficiencies. We confirmed our exceptions with a designated IRS employee.
   4. Estimated the number of correspondence audit deficiencies that should have been
      identified through the NQRS and compared that with NQRS management reports
      to determine the potential number of unreliable records in the NQRS.
   5. Determined if quality reviewers missed deficiencies that could lead to taxes being
      avoided by the taxpayer and estimated the potential number of correspondence
      audits with the amount of taxes that the NQRS did not identify.
   6. Determined if quality reviewers missed deficiencies that could lead to taxpayer
      burden and estimated the potential number of correspondence audits with
      taxpayer burden that the NQRS did not identify.
C. Determined whether NQRS quality reviewers were receiving consistent training and
   feedback.
   1. Evaluated the extent of NQRS training that quality reviewers received by
      reviewing the training records of those quality reviewers included in our case
      reviews.
   2. Determined how often the quality reviewers’ work is reviewed and feedback is
      provided by NQRS management.

                                                                                  Page 13
                            Actions Are Needed to Strengthen the
                  National Quality Review System for Correspondence Audits



           3. Interviewed NQRS officials to evaluate how review results are being used to
              improve future NQRS quality review activities.
III.   Evaluated how effectively management uses feedback from NQRS results to enhance the
       quality of correspondence audits.
       A. Obtained copies of Fiscal Years 2008 through 2012 NQRS quality review reports and
          other NQRS feedback provided to correspondence audit managers to identify the top
          10 reported quality concerns for correspondence audits. We also assessed the
          corrective actions taken in response to the concerns and whether any follow-up was
          taken to ensure that the corrective action was effective
       B. Determined if concerns and corrective actions reported by the NQRS were reported in
          SB/SE Division business performance reports.
       C. Reviewed TIGTA and Government Accountability Office reports to identify
          weaknesses and recommended corrective actions for correspondence audits and
          whether they were similar to concerns identified by the NQRS.
IV.    Evaluated the risk for fraud, waste, and abuse to obtain reasonable assurance that
       widespread improprieties do not exist by considering actions and/or trends within our
       sample case review of closed correspondence examinations.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: IRS policies, procedures, and practices
for determining whether examiners are meeting certain NQRS attributes during correspondence
audits. We evaluated these controls by reviewing source materials, interviewing management,
and reviewing a sample of 127 closed correspondence audits that had been previously reviewed
by the NQRS.




                                                                                         Page 14
                           Actions Are Needed to Strengthen the
                 National Quality Review System for Correspondence Audits



                                                                            Appendix II

                Major Contributors to This Report

Nancy A Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Acting Director
Robert Jenness, Audit Manager
Debra Mason, Lead Auditor
Donna Saranchak, Senior Auditor
William Tran, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                    Page 15
                           Actions Are Needed to Strengthen the
                 National Quality Review System for Correspondence Audits



                                                                             Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, SB/SE Division SE:S
Director, Campus Compliance Services, SB/SE Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, SB/SE Division SE:S:CSO
Director, Examination, SB/SE Division SE:S:E
Director, Campus Reporting Compliance, SB/SE Division SE:S:CCS:CRC
Director, Exam Planning and Delivery, SB/SE Division SE:S:E:EPD
Director, Exam Policy, SB/SE Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, SB/SE Division SE:S




                                                                                   Page 16
                              Actions Are Needed to Strengthen the
                    National Quality Review System for Correspondence Audits



                                                                                      Appendix IV

               Quality Attributes Considered by
          National Quality Review System Reviewers

For NQRS quality reporting purposes, attributes are grouped into the following categories:

     Attribute                                                     Sample Attributes Used
     Category              Category Definition                   by NQRS Quality Reviewers

                                                        Attribute 715, Correct/Complete Response/
                                                        Resolution: Used to identify if the employee
                                                        provided the taxpayer with the correct response
    Customer         Giving the correct answer with
                                                        or resolution to their case or issue and, if
    Accuracy         the correct resolution.
                                                        appropriate, took the necessary case actions or
                                                        case disposition to provide response or
                                                        resolution.

                     Adhering to statutory/regulatory   Attribute 502, Penalty Computation: Used to
    Regulatory       requirements when making           identify if the employee correctly determined/
    Accuracy         determinations on taxpayer         computed the proposed or actual assessment(s)
                     accounts/issues.                   and/or abatement(s) of penalty as required.

                                                        Attribute 100, Complete Research-Account
                                                        Related Systems: Used to identify if the
                     Adhering to nonstatutory/          employee properly researched and interpreted
                     nonregulatory internal process     account-related systems.
    Procedural
                     requirements when making
     Accuracy                                           Attribute 708, Addressed Full Scope of IRS
                     determinations on taxpayer
                     accounts/issues.                   Issues: Used to identify if the employee
                                                        addressed all applicable open IRS issues when
                                                        considering the full scope of the call/case.
                                                        Attribute 801, Clear/Professional Written
                                                        Communication: Used to identify if all
                     Promoting a positive image of
                                                        correspondence/documentation is professional.
 Professionalism     the IRS by using effective
                                                        This includes the use of clear and appropriate
                     communication.
                                                        language with no jargon to ensure that written
                                                        communication is complete.

                     Resolving an issue in the most
                                                        Attribute 904, Appropriate Timely Actions: Used
                     efficient manner through proper
    Timeliness                                          to determine if appropriate timely actions were
                     workload management and
                                                        taken to resolve the case or issue.
                     time utilization techniques.

Source: Internal Revenue Manual.

                                                                                                Page 17
                               Actions Are Needed to Strengthen the
                     National Quality Review System for Correspondence Audits



                                                                                          Appendix V

        Results From the Correspondence Audit
    Fiscal Year 2013 Business Performance Review
                     (1st Quarter)

  CAMPUS
 REPORTING
COMPLIANCE            HISTORICAL DATA                  FISCAL YEAR CUMULATIVE DATA                TARGETS
                                                                           FY 2012      % Plan     FY 2012
                                             June         June       %      Plan to     Accomp     Full Year
                      FY 2010    FY 2011    FY 2011      FY 2012   Change    Date          .         Plan
Correspondence
     Exam
     EITC
    STAFFING
FTE                     394.08     412.94     308.20      324.80     5.4%     322.05     100.9%      412.25
   CLOSURES/
  PRODUCTIVITY
EITC Closures          149,315    145,865    109,602     107,335     -2.1%   104,494    102.7%      148,855
  IMF > $200K              11         10          9           12    33.3%
  IMF > $1Mil               3           2         2            4     100%
Closures per FTE          379        353        356          330     -7.1%       324    101.9%          361
   TIMELINESS
Cycle Time                199        200        204          207     1.7%        193    107.3%          193
    CUSTOMER
  SATISFACTION
% Satisfied            47.00%     47.00%     47.00%       47.00%    0.00%     47.00%    100.00%       47.0%
    QUALITY
Paper Accuracy         95.86%     95.63%     96.43%       93.67%    -2.86%     95.0%    98.60%        95.0%
DISCRETIONARY
    STAFFING
FTE (Gross)           1,813.74   1,758.09   1,296.59     1,230.57     -5%    1,234.17     99.7%    1,659.16
Field Support/Non-
Compliance              413.53     361.85     272.79      261.87      -4%     265.86     98.5%       356.94
True Corr Exam FTE    1,400.21   1,396.24   1,023.81       968.7      -5%     968.31     100.0%    1,302.22
  TEFRA FTE             290.00     299.27     217.45      241.87      11%     237.70     101.8%      317.62
  Discretionary
  Non-TEFRA FTE       1,110.20   1,096.98     806.35      726.84     -10%     730.61     99.5%       984.60




                                                                                                    Page 18
                                 Actions Are Needed to Strengthen the
                       National Quality Review System for Correspondence Audits



   CAMPUS
  REPORTING
 COMPLIANCE              HISTORICAL DATA                      FISCAL YEAR CUMULATIVE DATA                     TARGETS

                                                                                       FY 2012     % Plan      FY 2012
                                                   June         June         %         Plan to     Accomp      Full Year
                         FY 2010     FY 2011      FY 2011      FY 2012     Change       Date          .          Plan
    CLOSURES/
  PRODUCTIVITY
 Non-EITC Closures        412,063      405,542      324,046     321,308        -1%      306,644     104.8%       365,247
   TEFRA                   31,870       22,957       17,599       32,274     83.4%       31,057     103.9%        18,202
   Discretionary
                          380,193
   Non-TEFRA                           382,585      306,447     289,034      -5.7%      275,587     104.9%       347,045
 Total IMF                377,743      379,272      301,836     296,620        -2%      288,549                  341,056
   IMF > $200K             65,760       66,938       52,557       63,354       21%       60,741     104.3%        64,990
   IMF > $1Mil             13,555       12,927        9,742       15,949       64%       15,420     103.4%        12,442
 Total BMF                 34,320       26,270       22,210       24,688       11%       18,095     136.4%        24,191
    TIMELINESS
 Cycle Time                   170          167          170          177        4%          177     100.2%              177
Source: Correspondence Audit Fiscal Year 2013 Business Performance Review (1st Quarter). Note: BMF =
Business Master File, EITC = Earned Income Tax Credit, FTE = Full-Time Equivalent, FY = Fiscal Year, IMF = Individual
Master File, TEFRA = Tax Equity and Fiscal Responsibility Act.




                                                                                                                Page 19
                             Actions Are Needed to Strengthen the
                   National Quality Review System for Correspondence Audits



                                                                                  Appendix VI

                                Glossary of Terms

Activity Codes – A code that identifies the type and condition of returns selected for audit.
Audit Information Management System – A computer system used to control returns, input
assessments/adjustments to the Integrated Data Retrieval System, and provide management
reports.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
First-Line Manager – A group manager in the Examination function responsible for supervision
of IRS examiners.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with a taxpayer’s account records.
National Quality Review System – Allows national reviewers to evaluate closed audit files to
determine whether examiners complied with quality attributes established by the IRS.
Skip Interval – The number of elements in the population divided by the number of sampling
units in the sample.
Tax Gap – The difference between taxes that are legally owed and taxes that are paid on time.




                                                                                           Page 20
               Actions Are Needed to Strengthen the
     National Quality Review System for Correspondence Audits



                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 21
          Actions Are Needed to Strengthen the
National Quality Review System for Correspondence Audits




                                                     Page 22
          Actions Are Needed to Strengthen the
National Quality Review System for Correspondence Audits




                                                     Page 23
          Actions Are Needed to Strengthen the
National Quality Review System for Correspondence Audits




                                                     Page 24
